No. 21IN THE

Supreme Court of the United States
HASSAN SHARIF ALI,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

CERTIFICATE OF SERVICE
I, Mark C. Fleming, a member of the bar of this Court, hereby certify that, on
this 27th day of September, 2021, all parties required to be served have been served
copies of the Petition for a Writ of Certiorari in this matter by overnight courier to the
address below.
BRIAN H. FLETCHER
ACTING SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
OFFICE OF THE SOLICITOR GENERAL
950 Pennsylvania Avenue, NW
Washington, DC 20530
(202) 514-2203
SupremeCtBriefs@usdoj.gov

MARK C. FLEMING
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
60 State Street
Boston, MA 02109
(617) 526-6000
mark.fleming@wilmerhale.com

